            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


            FOLLOW-UP ON
THE SOCIAL SECURITY ADMINISTRATION’S
      MONITORING OF POTENTIAL
         EMPLOYEE SYSTEMS
        SECURITY VIOLATIONS

  October 2007         A-14-07-17102




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 29, 2007                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up on the Social Security Administration’s Monitoring of Potential Employee
           Systems Security Violations (A-14-07-17102)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           implemented recommendations made in our July 2004 report, The Social Security
           Administration’s Monitoring of Potential Employee Systems Security Violations
           (A-14-04-23004).

           BACKGROUND
           In June 1998, SSA established a uniform set of Sanctions for Unauthorized Systems
                              1
           Access Violations (Sanctions) to secure the integrity and privacy of the personal
           information contained in the Agency’s computer systems and to ensure that any
           violations of the confidentiality of its computer records are treated consistently. For
           more information on Sanctions see Appendix B.

           In the document, Rules of Behavior for Users and Managers of SSA's Automated
           Information Resources, 2 the Agency describes what behavior is expected of all SSA
           personnel, contractors, and external users of SSA's automated information systems
           resources.

           Managers are the primary lines of defense against employee systems security
           violations. SSA’s Integrity Review Handbook outlines the procedures for managers to
           use when conducting integrity reviews. 3 In an effort to prevent and uncover potential

           1
            Information Systems Security Handbook (ISSH), Chapter 4 References, Office of Labor Management
           and Employee Relations website, Sanctions for Unauthorized System Access Violations, Attachment:
           Commissioner’s Memorandum, June 22, 1998.
           2
            Rules of Behavior for Users and Managers of SSA's Automated Information Resources,
           http://eis.ba.ssa.gov/ssasso/issh/rulesofbehavior.htm.
           3
               Integrity Review Handbook, Chapter 1, April 4, 2006.
Page 2 - The Commissioner

employee systems security violations, SSA developed the Comprehensive Integrity
Review Process (CIRP), a monitoring tool to detect specific SSA mainframe systems
activity that is considered potential fraud or misuse by employees. CIRP uses
predetermined criteria to identify certain queries input by employees and generates
reports for management review. SSA has developed a schedule of administrative
sanctions or penalties to address people who have inappropriately used SSA’s systems
and information. For additional background information, see Appendix B and for our
scope and methodology, see Appendix C.
                                                  4
The Office of Management and Budget (OMB) guidance states:

        …safeguarding personally identifiable information 5 (PII) in the possession
        of the government and preventing its breach are essential to ensure the
        government retains the trust of the American public.             This is a
        responsibility shared by officials accountable for administering operational
        and privacy and security programs, legal counsel, Agencies’ Inspectors
        General and other law enforcement, and public and legislative affairs. It is
        also a function of applicable laws, such as the Federal Information
        Security Management Act of 2002 (FISMA) and the Privacy Act of 1974.

RESULTS OF REVIEW

We determined that SSA has implemented our recommendations. At the time of our
original audit, we noted problems with classifying violations with the correct severity
level, maintaining sufficient documentation and providing appropriate case
documentation to the Office of the Inspector General (OIG) in a timely manner. SSA
has improved in these areas and is working to ensure that these issues are dealt with
sufficiently and appropriately.

We found during our current review that the Agency could improve the system security
violation monitoring and reporting process by incorporating the following suggestions:

    •   Periodically issue electronic or written reminders concerning the retention of
        supporting documentation for systems security violations according to SSA’s
        policy;

    •   Implement a pilot where the OIG is provided all employee potential misuse and
        potential fraud systems security violations for two headquarters components and
        one regional office for 6 months;
4
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, May 22, 2007.
5
  The term “personally identifiable information” refers to information which can be used to distinguish or
trace an individual's identity, such as their name, Social Security number, biometric records, etc. alone, or
when combined with other personal or identifying information which is linked or linkable to a specific
individual, such as date and place of birth, mother’s maiden name, etc.
Page 3 - The Commissioner

   •   Provide OIG with all potential misuse or potential fraud employee systems
       security violations, as identified by SSA managers as needing further
       investigation, to assess the information for potential criminal activity; and

   •   Evaluate and modify policies and procedures to ensure employee violations of
       Automated Information Resources Rules of Behavior are appropriately
       addressed.

Recommendations from Our Prior Review

    Recommendation 1: We recommended SSA establish policies and procedures
on retaining all supporting documentation for potential misuse or potential fraud
employee systems security violations, as identified by SSA managers as needing
further investigation, so that resolutions are accessible and verifiable.

The Agency agreed with our recommendation and stated that their current policy and
procedures require reasonable retention of documentation necessary to ensure
effective resolution of and consistent application of Sanctions for such cases. SSA
agreed to issue reminders to management concerning these policies and procedures to
assure that adequate documentation is maintained.

We reviewed SSA’s current policies and procedures, Operational and Administrative
Records Schedules (OARS) on retaining all supporting documentation for potential
misuse or potential fraud employee systems security violations, as identified by SSA
managers as needing further investigation. We determined the Agency’s retention
policy and procedures appear appropriate to address the Agency’s need in this area.

    Recommendation 2: We recommended SSA maintain supporting documentation
for all potential misuse or potential fraud employee systems security violations, as
identified by SSA managers as needing further investigation, to ensure appropriate and
consistent Sanctions are applied within the Agency.

The Agency agreed with recommendation 2 and indicated they would send out
reminders as needed for management to maintain supporting documentation. During
our review of 108 cases, we observed that SSA has improved on its retention of
documentation related to potential systems security violations since the original audit.
According to SSA, oral reminders were periodically issued to staff. As SSA
experiences significant human capital turnover, we encourage SSA to ensure the
integrity of the security violations review process and consider periodically issuing
electronic or written reminders to managers to maintain all documentation associated
with systems security violations for 4 years as required by SSA policy.

    Recommendation 3: We recommended SSA provide OIG with periodic access to
the potential misuse or potential fraud employee systems security violations, as
identified by SSA managers as needing further investigation, to assess the information
for potential criminal activity.
Page 4 - The Commissioner

The Agency agreed with this recommendation. In response to recommendation 3, SSA
provided OIG access to 6 months, January 2004 to June 2004, of data for cases where
administrative action had already occurred. The Office of Operations evaluated the
referral process and determined it would continue to refer only cases to OIG that the
Agency determined were Category III cases. At that time, the OIG was enhancing its
investigative database and revised the electronic 8551 (e-8551) fraud reporting form.
OIG was expanding the use of the e-8551 on SSA Intranet sites to alert managers to
the new process and encourage them to use it. These actions were completed after
the pilot in 2004. Since an automated process exists, it would be beneficial to perform
a new pilot. Our suggestion is that all potential misuse and potential fraud system
security violations for two headquarters components and one regional office be
submitted to the OIG for a 6-month period. Appendix E details the number of staff per
SSA Office, related transactions, and reported violations. During the pilot period, SSA
could assess the effectiveness and consistency of monitoring and processing system
security violations Agency-wide.

Our review of the 108 cases showed that the Agency has improved on its categorization
of the systems security violation cases. During our original audit, we observed
numerous instances where violations that should have been Category IIB or III were
categorized as a Category I or IIA. We did not find any instances of that problem during
the current review.

As mandated by the Inspector General Act of 1978, the OIG is responsible for
preventing and detecting fraud and abuse in agency programs and operations. 6 The
Office of Investigations within the OIG, protects the integrity of SSA’s programs by
investigating allegations of fraud, waste, and abuse. 7 For this reason, such cases
should be referred to the OIG early in the administrative sanction development process
to ensure fulfillment of the OIG’s responsibilities and the effective enforcement of SSA’s
and OIG’s mission.

We found that 3 of the 108 administratively sanctioned cases were referred to the OIG
by SSA. Specifically, the Agency referred two Category III cases and a Category IIB
case to OIG. In addition, one Category IIB and one Category III violation case were
referred to the OIG by outside sources. The Category IIB case was referred to OIG by
a local law enforcement agency. In this case, the employee improperly accessed




6
    5 U.S.C. App. 3, Section 2.
7
    OIG Manual System, OI Special Agent Handbook, Chapter 1, Section 001.020, p. 1-3.
Page 5 - The Commissioner

SSA’s Systems and disclosed the information to an unauthorized individual. With the
recent release of OMB Memorandum M-07-16, 8 in the future an SSA manager should
send the case to OIG to review since this would be considered a breach of PII. The
OMB guidance states safeguarding PII and preventing its breach is the responsibility
shared by officials accountable for administering operational and privacy and security
programs, legal counsel, agencies’ Inspectors General and other law enforcement, and
public and legislative affairs. 9 The second case was referred to the OIG by an
anonymous caller to the Hotline. 10 This Category III case entailed an employee who
was using SSA’s System to maintain or support a personal business. According to the
                                11
Agency’s Rules of Behavior, SSA prohibits the use of e-mail to maintain or support a
personal business. This case may not have been referred by SSA because the Agency
is not recognizing and applying the same Systems Security Violation Sanctions to the
improper computer use cases.

During our audit of SSA's Incident Response and Reporting System, 12 we identified
other instances of improper computer use or improper use of PII that were detected
outside of the CIRP process. For example, we identified cases of computer misuse
involving an SSA employee and a Disability Determination Service (DDS) employee. In
one case, an SSA employee had unauthorized password cracking software on an SSA
workstation. An employee could use password cracking software repeatedly to try to
guess users’ passwords to gain unauthorized access to a system, and to retrieve all the
files on an individual’s computer, or even log in to a computer. The employee was told
to remove the software from his computer, but no administrative action was taken
against him. In another case, a DDS employee e-mailed 55 claimants’ SSNs, names,
and case numbers to a “Hotmail” e-mail account. The employee sent 3 e-mails
containing PII on the 55 claimants outside of SSA’s secure network. This employee
just returned from a 10-day suspension for a separate unrelated disciplinary action.
Only one of these two cases was referred to the OIG and this case was referred after
we informed the Agency of our findings. It appears that SSA is not recognizing and
applying the same Systems Security Violation Sanctions to these improper computer
use cases. All computer-related and PII cases that violate the Agency’s Rules of




8
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, May 22, 2007.
9
    Id.
10
  The SSA OIG Fraud Hotline provides an avenue for individuals to report fraud, waste, and abuse within
the SSA’s programs and operations. The Hotline handles allegations regarding violations of law or
regulations affecting SSA programs and operations.
11
   Rules of Behavior for Users and Managers of SSA's Automated Information Resources,
http://eis.ba.ssa.gov/ssasso/issh/rulesofbehavior.htm.
12
  OIG Final Report, The Social Security Administration’s Incident Response and Reporting System,
A-14-07-17070, dated August 3, 2007.
Page 6 - The Commissioner

Behavior 13 need to have appropriate Sanctions applied. Where potential fraud or
possible criminal activity is involved, cases should be forwarded to the OIG. SSA
needs to modify policies and procedures that ensure employee systems security
violations of Automated Information Resources Rules of Behavior are appropriately
addressed.

As noted in the background section, protecting PII is a highly significant issue for the
Federal Government. The importance of protecting PII is emphasized by the recent
guidance and requirements in this area issued by OMB. Based on the increased
emphasis placed on protecting PII, OIG believes that some level of investigation by our
office is warranted for those cases designated by SSA managers as potential misuse or
potential fraud systems security violations. This investigation should occur prior to
applying administrative actions.

We would like to encourage the Agency to send all category III violations and cases
that managers determine need further investigation to the OIG. In addition, the Agency
should remind managers that systems security violations are not limited to the CIRP
process as previously described but may include other breaches of PII such as sending
PII home through e-mail. Finally, SSA should send any appropriate cases found
outside of CIRP to the OIG.

    Recommendation 4: We recommended that SSA continue to ensure all integrity
reviews are conducted in a more timely and in-depth manner.

The Agency agreed with this recommendation and stated they already devote
significant resources to monitor accurate and timely completion of CIRP alerts.

During our review of the 108 administratively sanctioned cases, we estimated
85 percent of the sanctions were applied within 1 year of the violation (see the Table
below). We appreciate SSA’s efforts to adequately address our recommendation to
perform these reviews in a more timely and in-depth manner. We encourage the
Agency to continue to expedite the review process to minimize the number of cases
that take longer than 1 year to process. This will ensure the Agency’s ability to protect
the integrity and privacy of the personal information contained in its computer systems.




13
   Rules of Behavior for Users and Managers of SSA's Automated Information Resources,
http://eis.ba.ssa.gov/ssasso/issh/rulesofbehavior.htm.
Page 7 - The Commissioner


      Administrative Sanction            Number of             Percentage of Cases
        Processing Times               Cases Reviewed               Reviewed
   Less than or equal to 12
                                               92                        85.2
   months-see note
   Greater than 1 year and less
   than 3 years                                 8                        7.4
   Over 3 years                                 8                        7.4
                TOTAL                          108                       100
  Note-This includes 4 cases where employees resigned or their resignation was pending.

CONCLUSION AND RECOMMENDATIONS
SSA has made progress in addressing the four recommendations of our prior audit.
SSA has established policies and procedures to retain and maintain the systems
security violations documentation. In addition, the Agency is performing the integrity
reviews more timely and in an in-depth manner. We encourage the Agency to continue
its efforts to implement corrective actions to improve its systems security violation
review process. However, to strengthen SSA’s integrity review process and reduce its
vulnerability to employee systems security violations, we recommend SSA:

1. Continue to send electronic or written reminders concerning retention of supporting
   documentation for systems security violations according to SSA’s policy.

2. Implement a pilot where the OIG is provided all employee potential misuse and
   potential fraud systems security violations for two headquarters components and
   one regional office for 6 months.

3. Provide OIG with all potential misuse or potential fraud employee systems security
   violations, as identified by SSA managers as needing further investigation, to assess
   the information for potential criminal activity.

4. Evaluate and modify procedures to ensure all employee violations of Automated
   Information Resources Rules of Behavior are appropriately detected, reported,
   documented, and resolved across the organization.

AGENCY COMMENTS
SSA generally agreed with all our recommendations. See Appendix F for the full text of
SSA’s comments.




                                             Patrick P. O’Carroll, Jr.
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Sanction Cases Reviewed for Fiscal Year 2006 Systems Security
             Violations
APPENDIX E – Comparison of Systems Access, Transactions and Security Violations
             for Fiscal Year 2006
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments




Follow-up Systems Security Violations Audit (A-14-07-17102)
                                                                        Appendix A

Acronyms
 ATS               Audit Trail System
 CIRP              Comprehensive Integrity Review Process

 DDS               Disability Determination Service

 DSSPI             Division of Systems Security and Program Integrity

 FISMA             Federal Information Security Act of 2002

 FY                Fiscal Year
 ISSH              Information Systems Security Handbook

 OARS              Operational and Administrative Records Schedule

 ODAR              Office Disability Adjudication and Review

 OIG               Office of the Inspector General

 OMB               Office of Management and Budget

 OPSOS             Office of Public Service and Operations Support

 PII               Personally Identifiable Information
 Sanctions         Sanctions for Unauthorized Systems Access Violations

 SSA               Social Security Administration




Follow-up Systems Security Violations Audit (A-14-07-17102)
                                                                                  Appendix B

Background
This is a follow-up of our July 2004 report, The Social Security Administration’s
Monitoring of Potential Employee Systems Security Violations (A-14-04-23004). In the
Comprehensive Integrity Review Process (CIRP), the manager determines whether
queries are considered: 1) No Problem; 2) Potential Violation - Misuse; 3) Potential
Violation - Fraud; or 4) Not-Certified – Investigation Pending. CIRP reviews must be
completed and certified in a certain period of time depending on the type of review. For
example, CIRP query reviews need to be completed and certified by the end of each
month. If a potential security violation (misuse or fraud) is identified, the appropriate
security staff 1 must be contacted to advise managers on the appropriate action to be
taken. While the information in the CIRP query system is retained for a short period of
time, the history of employees is maintained in the Audit Trail System (ATS) for 7 years.
The ATS is designed to provide SSA security officers with the capability to monitor SSA
data entry activities nationwide.

Annually, all employees are required to read and sign the Acknowledgment Statement
                                                            2
indicating that they have read and understand the sanctions. The Sanctions and
Acknowledgment Statement have both been incorporated into the Information Systems
Security Handbook. Employees who violate the established rules are subject to the
Agency’s Sanctions for systems misuse as follows:

                       Systems Security Violation Category and Sanction

            Category           First Time Offense                                  Sanction
                I    Unauthorized access without disclosure                   2-day suspension
                IIA       Disclosure of information to an individual          2-day suspension
                          entitled to the information
                IIB       Disclosure of information to an individual          14-day suspension
                          not entitled to the information
                 III      Unauthorized access for personal gain or            Removal
                          with malicious intent




1
    Integrity Review Handbook, Release 3, Chapter 1, Query Review, p. 4, August 2003.
2
 Information Systems Security Handbook, Chapter 4 References, Office of Labor Management and
Employee Relations website, Sanctions for Unauthorized System Access Violations, Attachment:
Commissioner’s Memorandum, June 22, 1998.

Follow-up Systems Security Violations Audit (A-14-07-17102)
                                                                                      Appendix C

Scope and Methodology
Our scope was limited to a determination of whether the Social Security Administration
(SSA) has taken sufficient measures to implement the recommendations in our 2004
                                                          1
report. We reviewed 108 cases from 5 regional offices, the Office of Central
Operations and the Office of Disability Adjudication and Review for Fiscal Year (FY)
2006. For each case, we examined the Standard Form 50, Notification of Personnel
Action, and the adverse action documentation to determine whether the Agency
consistently applied its Sanction policy in a timely manner. We compared all 108 cases
to the National Investigative Case Management System to determine if all cases were
referred to the Office of the Inspector General for investigation. We also confirmed the
total number of administratively sanctioned cases provided from the Office of Public
Service and Operations Support (OPSOS) with the cases received from each of the
offices. In addition, we also:

1. Reviewed the following criteria:

              Federal Information Security Management Act of 2002 (FISMA); 2
              Office of Management and Budget (OMB) Circular A-130, Management of
               Federal Information Resources;
              OMB Memorandum M-07-16, Safeguarding Against and Responding to the
               Breach of Personally Identifiable Information, May 22, 2007;
              SSA’s Operational and Administrative Records Schedule’s guidance on
               personnel records;
              SSA’s Information Systems Security Handbook;
              SSA’s Rules of Behavior for Users and Managers of SSA's Automated
               Information Resources;
              SSA’s Program Operations Manual System; and
              SSA’s Integrity Review Handbook.




1
    The same five regions as the original audit, New York, Philadelphia, Atlanta, Dallas, and San Francisco.
2
    P.L. No. 107-347, Title III, section 301, codified at 44 U.S.C. § 3541 (1).

Follow-up Systems Security Violations Audit (A-14-07-17102)                                              C-1
2. Interviewed representatives from SSA’s:

          Office of Operations, OPSOS, and Division of Systems Security and Program
           Integrity (DSSPI). DSSPI monitors integrity reviews in the regions and the
           processing centers to ensure the reviews are performed timely and
           consistently;
          Office of Systems Security Operations Management, which has national
           oversight of the integrity review process;

We performed our field work at SSA Headquarters between December 2006 and
May 2007. We determined that the data used in this report was sufficiently reliable to
meet our audit objectives and intended use of the data. We determined that our use of
this data should not lead to an incorrect or unintentional message. We conducted our
review in accordance with generally accepted government auditing standards.




Follow-up Systems Security Violations Audit (A-14-07-17102)                        C-2
                                                                            Appendix D
Sanction Cases Reviewed for Fiscal Year 2006
Systems Security Violations
                                                 Cases OIG Received
    Social Security
    Administration                                    Offenses
    Region\ Offices

                               Cat. I    Cat. IIA    Cat. IIB    Cat. III    Total

5 Regions


  New York                      14           2          6           0         22


  Philadelphia                  13           9          1           0         23


  Atlanta                       19           5          2           1         27


  Dallas                         8           1          0           1         10


  San Francisco                 13           3          1           0         17


Headquarters


Office of Central
Operations                       4           0          1           0          5


Office of Disability
Adjudication and
Review                           2           0          1           1          4


 Total                          73          20          12          3         108




Follow-up Systems Security Violations Audit (A-14-07-17102)
                                                                        Appendix E
Comparison of Systems Access, Transactions, and
Security Violations for Fiscal Year 2006
                                                                          Number of
                                   Number of              Number of        Systems
     Social Security             Employees with          Query CIRP        Security
  Administration Offices         Systems Access         Transactions*     Violations

Office Of Operations                   65,159             12,984,139          128

Office of Systems                       8,334                  4,196            0

Office of Disability                    7,876                 14,831            4
Adjudication and Review

Office of Quality                       1,306                 113,395           0
P f
Office of Budget Finance                 963                   1,467            0
and Management

Office of Disability and                 837                   9,896            0
Income Security Programs

Office of the Inspector                  621                  312,418           0

Office of General Counsel                571                   2,967            0

Center for Medicare and                  505                   1,358            0
Medicaid Services

Office Human Resources                   412                   3,157            0

Office of Communications                 177                  11,910            0

Office of Policy                         128                   192              0

Office of Legislation and                53                    314              0

Office of Actuary                   53               1,667                      0
      *CIRP – Comprehensive Integrity Review Process.

This chart shows that the Office of Operations is reporting the majority of violations and
also has the most staff with the most mainframe access. The Office of Disability
Adjudication and Review was the only other office that reported system security
violations.

Follow-up Systems Security Violations Audit (A-14-07-17102)
                                                              Appendix F

Agency Comments




Follow-up Systems Security Violations Audit (A-14-07-17102)
MEMORANDUM


Date:      October 4, 2007                                                 Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Recommendation Reconsideration Letter,
           “Follow-up on the Social Security Administration’s Monitoring of Potential Employee
           Systems Security Violations” (A-14-07-17102)—INFORMATION


           In response to your September 12, 2007 request to reconsider our response to
           recommendation 4, we now agree based on the revised language you provided for that
           recommendation. The attached response to recommendation 4 now reflects that we
           agree, while the response to recommendations 1 through 3 remains unchanged.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Response




           Follow-up Systems Security Violations Audit (A-14-07-17102)                           F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP ON THE SOCIAL SECURITY ADMINISTRATION’S
MONITORING OF POTENTIAL EMPLOYEE SYSTEMS SECURITY VIOLATIONS ”
(A-14-07-17102)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this follow-up audit of the Social Security Administration’s (SSA) monitoring of
potential employee systems security violations. Our responses to the specific recommendations
are provided below.

Recommendation 1

Continue to send electronic or written reminders concerning retention of supporting
documentation for systems security violations according to SSA’s policy.

Comment

We agree. We have provided reminders in the past and will continue to send written and
electronic reminders to management about the need to retain supporting documentation regarding
systems security violations. In September 2007, we issued a reminder to managers to retain
supporting documentation for systems security violations development.

Recommendation 2

Implement a pilot where OIG is provided all employee potential misuse and potential fraud
systems security violations for two headquarters components and one regional office for 6
months.

Comment

We partially agree. We still do not believe there is any value in providing information on cases
of misuse in which fraud is not involved. We will, however, work with OIG to develop a process
to submit information on all potential misuse cases for one region and two headquarters
components for a six month period.

Recommendation 3

Provide OIG with all potential misuse or potential fraud employee systems security violations, as
identified by SSA managers as needing further investigation, to assess the information for
potential criminal activity.

Comment

We partially agree. As in the past, we will continue to refer all Category III violations to OIG via
the electronic 8551 fraud reporting form. We will continue to refer other category violations
where fraud or possible criminal activity exists. This includes violations discovered through the
Follow-up Systems Security Violations Audit (A-14-07-17102)                                      F-2
Comprehensive Integrity Review Process. As stated in our response to recommendation 2, we do
not see value in referring all potential violations to OIG as the vast majority of these do not
involve fraud, criminal intent or criminal activity.

Recommendation 4

Evaluate and modify procedures to ensure all employee violations of the Automated Information
Resources Rules of Behavior are appropriately detected, reported, documented and resolved
across the organization.

Comment

We agree. We already have policies in place to address violations. Our records show that when
we detect violations, we have taken the appropriate disciplinary measures, documented our
actions and reported the violations to OIG when warranted. We investigate violations and
potential misuse, and if fraud is suspected, we refer the cases to OIG. Sanctions for
Unauthorized Systems Access Violations (Sanctions) policies are applied when appropriate.
However, not all failures to comply with the Rules of Behavior fall under Sanctions policies and
when appropriate progressive discipline is applied instead of the sanction policies. We believe
progressive discipline is the appropriate manner to address the types of activities provided as
examples in the audit report and do not believe that they should be included in the systems
Sanctions policy. Penalties under progressive discipline may be as severe as penalties imposed
under Sanctions policies.




Follow-up Systems Security Violations Audit (A-14-07-17102)                                   F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division, (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch,
   (410) 965-9719

Acknowledgments

In addition to those named above:

   Mary Ellen Moyer, Senior Program Analyst
   Deborah Kinsey, Senior Auditor
For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-17102.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
